i

No.

IN THE
SUPREME COURT OF THE UNITED STATES

TREVON WILEY — PETITIONER
vs.

DARREL VANNOY, WARDEN — RESPONDENT(S)
PROOF OF SERVICE
I, Trevon Wiley, do swear or declare that on this date, April 5, 2021,
as required by Supreme Court Rule 29 I have served the enclosed Motion
For Leave to Proceed in Forma Paupers and Petition for a Writ of Certiorari
on each party to the above proceeding or that party’s counsel, and on every
other person required to be served, by depositing and envelope containing
the above documents in the United States mail properly addressed to each of
them and with first-class postage prepaid, or by delivery to a third-party
commercial carrier for delivery within 3 calendar days.
The names and addresses of those served are as follows:
Office of the District Attorney
Jefferson Parish
200 Derbigny Street
Gretna, LA 70053
I declare under penalty of perjury that the foregoing is true and correct.
Executed on April 5, 2021

(Signatui?)

